<html>
<title> - NOMINATION OF LIEUTENANT GENERAL PAUL M. NAKASONE, U.S. ARMY, TO BE DIRECTOR OF THE NATIONAL SECURITY AGENCY AND CHIEF OF THE CENTRAL. SECURITY SERVICE</title>
<body><pre>[Senate Hearing 115-395]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-395
                                                        

                    NOMINATION OF LIEUTENANT GENERAL
                   PAUL M. NAKASONE, U.S. ARMY, TO BE
                DIRECTOR OF THE NATIONAL SECURITY AGENCY
               AND CHIEF OF THE CENTRAL SECURITY SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 15, 2018

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                               _________ 

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-949 PDF                WASHINGTON : 2018             
        
        
        
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN III, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                   
                                CONTENTS

                              ----------                              

                             MARCH 15, 2018

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Warner, Mark R., Vice Chairman, a U.S. Senator from Virginia.....     2

                                WITNESS

Nakasone, Lieutenant General Paul M., U.S. Army, Nominated to be 
  Director of the National Security Agency and Chief of the 
  Central Security Service.......................................     4
    Prepared statement...........................................     7

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    26
Additional Prehearing Questions..................................    42
Questions for the Record.........................................    59
Statement from the Electronic Privacy Information Center.........    71

 
                    NOMINATION OF LIEUTENANT GENERAL
                   PAUL M. NAKASONE, U.S. ARMY, TO BE
                   DIRECTOR OF THE NATIONAL SECURITY
                    AGENCY AND CHIEF OF THE CENTRAL.
                            SECURITY SERVICE

                              ----------                              


                        THURSDAY, MARCH 15, 2018

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Senators Burr, Warner, Risch, Blunt, Lankford, 
Cotton, Wyden, King, and Harris.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing to order. 
Lieutenant General Paul M. Nakasone, President Trump's nominee 
to be the next Director of the National Security Agency, 
General Nakasone, congratulations on your nomination.
    I'd like to start by recognizing your wife Susan. She's 
here with us today and your four children: David and Joseph, 
who are both high school juniors; Sarah, who's studying at the 
University of Chicago; and Daniel who is at the University of 
Virginia. You've got them geographically spread around. I know 
from personal experience just how important a supportive family 
is. And to each of you--and, Susan, I hope you pass it on to 
the kids--thank you.
    Our goal in conducting this hearing is to enable the 
committee to consider the nominee's qualifications and to allow 
for thoughtful deliberation by our members. Lieutenant General 
Nakasone has provided substantive written responses to over 45 
questions presented by the committee. And today, of course, 
committee members will be able to ask additional questions and 
hear from him in open session.
    General Nakasone graduated from Saint John's University and 
earned a master's degree from the University of Southern 
California, the National Defense Intelligence College, and the 
United States Army War College. He served honorably in the 
United States Army for over 30 years, including deployments to 
Afghanistan, Iraq, and the Republic of Korea. Prior to leading 
the United States Army Cyber Command, General Nakasone 
commanded the Cyber National Mission Force at the United States 
Cyber Command.
    General Nakasone, you are being asked to lead the National 
Security Agency during a period of significant debate about 
what authorities and tools are lawful and appropriate. I'm 
hopeful that, moving forward, you will be an influence and an 
influential and forceful advocate for those foreign 
intelligence tools you believe are necessary to keep the 
citizens of this country safe while protecting Americans' 
privacy.
    As I have mentioned to others during their nomination 
hearing, I can assure you that this committee will faithfully 
follow its charter and conduct a vigorous and real-time 
oversight of the intelligence community, its operations and its 
activities. We'll ask difficult and probing questions of you 
and your staff and we will expect honest, complete and timely 
responses.
    You've already been reported favorably out of the Senate 
Armed Services Committee on 6 March of this year, and I look 
forward to supporting your nomination and ensuring its 
consideration without delay.
    I want to thank you again for being here. I look forward to 
your testimony.
    Finally, yesterday the committee received a statement from 
the Electronic Privacy Information Center and asked that it be 
entered into the hearing record. I would ask members for 
unanimous consent that that statement be entered into today's 
open record. Hearing no objection, so ordered.
    I now recognize the Vice Chairman for his lengthy comments.
    [Laughter.]

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman. Since no one 
is here, I'm sure people are going to be hanging on my every 
word.
    General Nakasone, it's great to see you again and welcome. 
I believe actually, since you're the first director as--as 
Director of NSA and CYBERCOM, this is the first time, though, 
as NSA Director that you've appeared before the committee. So a 
bit of a historic hearing; and, consequently, slightly extended 
remarks of mine.
    Obviously, General, if you are confirmed you will take 
charge of one of the most important assignments in our 
government and in the intelligence community. You will be 
entrusted to lead thousands of dedicated men and women of the 
NSA. It will be your job to ensure accurate and timely signals 
intelligence is provided to our Nation's leaders and 
warfighters.
    You'll be responsible for protecting our military networks, 
safeguarding the unique capabilities and assets of the United 
States, and outsmarting our adversaries. And, as Commander of 
U.S. CYBERCOM, you will also be responsible to--for responding 
to threats and conduct operations when ordered to do so.
    At the same time, as we've discussed again, you must ensure 
that the NSA operate within the law and that it continues to 
protect the privacy and civil liberties of Americans. The NSA's 
activities must continue to operate within the parameters of 
that law, particularly the FISA law, with foolproof mechanisms 
for ensuring that no Americans are targeted without warrant, 
and will continue to be subject to robust oversight by this 
committee.
    Your nomination I believe comes at a critical time. As I 
look around the world, I see threats and challenges to our 
country, to our systems of international institutions and 
alliances, that frankly have maintained peace and prosperity 
since World War II. We've also seen domestic threats to the 
NSA's ability to execute on its mission, with a series of leaks 
that have challenged the agency and at times undermined the 
morale of your workforce.
    The NSA must provide the best intelligence on terrorists 
and extremist groups, rogue regimes, nuclear proliferation, and 
regional instability. I'm concerned about the rise of potential 
nation-state adversaries and their policies which aim to 
disrupt the international order.
    In particular, we should all be alarmed by the 
destabilizing role played by Vladimir Putin's Russia, which 
threatens both the United States and our allies and, as we've 
seen by their recent activities in the U.K., there are very few 
restrictions that Mr. Putin has put on his agent's actions. 
Matter of fact, the heads of our intelligence agencies were 
here a month ago and all indicated that Russia will continue to 
try to interfere in our elections, activities that demand a 
strong United States response.
    Our country I believe must develop a whole-of-government 
response to strengthen our defenses. I believe--and we've again 
discussed this, we'd like to hear more about this today--that 
we need a clearly articulated cyber doctrine that will deter 
nations like Russia from going after our crucial institutions, 
whether they be civilian, military, or in the private sector. 
We've got to make sure they know, whether it's Russia or other 
near-peer adversaries, that there will be consequences to their 
actions.
    I believe that our lack of action to date has, frankly, 
encouraged nations not only like Russia, but China and others, 
frankly to act with impunity. I also worry that we're on the 
cusp of what I would call a paradigm shift in the technological 
development, and not one which we're well-poised to prevail 
against well-resourced competitors, who are willing to engage 
not only in a whole-of-government, but particularly a whole-of-
society effort, to obtain economic advantages and access to our 
most sensitive technologies.
    The top dozen Chinese technology firms that have already 
entered or are poised to enter the United States and Western 
markets, in stark contrast to our country, these firms maintain 
relationships with and provide access to the Chinese government 
that is unlike anything we've seen with other developed 
nations. While we want to encourage an open economy, what are 
the potential risks to our society from these developments?
    Now, China is still behind the United States in R&D 
expenditures, but, with the current spend lines, not for long. 
China's R&D spending is increasing by about 20 percent a year. 
By comparison, our R&D expenditures are increasing about 4 
percent a year.
    Frankly, the lines will shortly cross; and China is 
positioning itself to be a global leader in artificial 
intelligence, quantum computing, and bioengineering, and that 
brings serious implications for our privacy, economic and 
national security. I believe the NSA will continue to play a 
critical role in keeping our country ahead in this ever-
changing world of emerging technologies.
    Finally, I'd like to hear your thoughts about the dedicated 
men and women of the NSA, your workforce of dedicated 
intelligence professionals. These are men and women who work in 
silence to keep America safe. Now, they've taken a beating 
sometimes recently from those who falsely call into question 
their motivations, their dedication and their honesty. I know 
that these attacks obscure the truth.
    My colleagues on this committee and I know that at the NSA 
headquarters the Memorial Wall lists the names of 176 NSA 
cryptologists, military and civilian, who made the ultimate 
sacrifice for their country while serving in silence. I'd like 
to hear your plans on how we maintain that world-class 
workforce going forward.
    Again, thank you, Mr. Chairman, for holding this hearing 
and I look forward to the General's comments.
    Chairman Burr. I thank the Vice Chairman.
    General, if you would stand and raise your right hand. Do 
you solemnly swear to tell--to give this committee the truth, 
the full truth and nothing but the truth, so help you God?
    General Nakasone. I do.

 STATEMENT OF LIEUTENANT GENERAL PAUL M. NAKASONE, U.S. ARMY, 
 NOMINATED TO BE DIRECTOR OF THE NATIONAL SECURITY AGENCY AND 
             CHIEF OF THE CENTRAL SECURITY SERVICE

    Chairman Burr. Please be seated.
    General, before we move to your statement, I'll ask you to 
answer five standard questions the committee poses to each 
nominee who appears before us. They require a simple yes or no 
response for the record.
    Do you agree to appear before the committee here or in any 
other venue when invited?
    General Nakasone. Yes.
    Chairman Burr. If confirmed, do you agree to send officials 
from your office to appear before the committee and designated 
staff when invited?
    General Nakasone. Yes, Mr. Chairman.
    Chairman Burr. Do you agree to provide documents or any 
other materials requested by the committee in order for it to 
carry out its oversight and legislative responsibilities?
    General Nakasone. Yes, Mr. Chairman.
    Chairman Burr. Will you ensure that your office and your 
staff provide such materials to the committee when requested?
    General Nakasone. Yes, Mr. Chairman.
    Chairman Burr. Do you agree to inform and fully brief, to 
the fullest extent possible, all members of this committee on 
all intelligence activities, rather than only the Chair and the 
Vice Chair?
    General Nakasone. Yes, Mr. Chairman.
    Chairman Burr. Thank you very much for your answers. We'll 
now proceed to your opening statement, after which I'll 
recognize members by seniority for up to five minutes. General, 
the floor is yours.
    General Nakasone. Chairman Burr, Vice Chairman Warner, and 
distinguished members of the committee: I am honored to testify 
here today for my nomination as Director of the National 
Security Agency and Chief, Central Security Service. I want to 
thank President Trump, Secretary Mattis, Director Coats, and 
General Dunford for their confidence in nominating me for these 
important positions.
    I'd also like to thank my wife Susan for being here. I owe 
much of my success to her love and support throughout nearly 25 
years of marriage. Today, our children, Sarah, Daniel, David 
and Joseph, are all in school and will be unable to be with us. 
We're tremendously proud of them and thankful for their 
selflessness and support.
    I'd also like to thank Admiral Mike Rogers for his 36 years 
of commissioned service for the Nation, and for leading NSA 
during a time of incredible transformation and tremendous 
growth. I thank him and his wife Dana for all they have done in 
service to our Nation.
    I commissioned in the Army over 31 years ago as an 
intelligence officer and for the past three decades, have 
served in intelligence and in leadership positions both at home 
and abroad, in peace and in war.
    If confirmed for this position, this will be my fourth 
assignment to NSA. In my previous assignments to the agency, 
I've always been impressed by the phrases that greet everyone 
who enters that building: ``Defend the Nation, secure the 
future.'' These simple directives captured the critical role 
the NSA plays in supporting our military and senior 
policymakers while safeguarding our freedoms.
    I know that the National Security Agency is a special 
member of our intelligence community and of unique importance 
in the defense of our Nation. Throughout the agency's 65 years 
of service, one constant has remained--the quality of the 
people. These men and women are national treasures and they're 
engaged in missions that can only be called one of a kind. If 
confirmed, I know this workforce will be the foundation of 
NSA's future and continued success. My focus will begin and end 
with them.
    Throughout my career, I've been both a generator and 
consumer of NSA intelligence products and know first-hand the 
critical role the agency plays, both as a combat support and 
signals intelligence agency. The importance of delivering 
accurate, reliable and timely intelligence products cannot be 
overstated. And, if confirmed, I commit to upholding the high 
reputation of the agency as a provider of objective, mission-
critical signals intelligence in support of our military and 
our government.
    I recognize that our Nation's adversaries continue to pose 
threats and posture themselves to reduce our global advantage. 
In light of this, the importance of an effective National 
Security Agency continues to be paramount to our national 
defense.
    I also recognize that we are at the edge of the 
technological frontier for our Nation. The future that the next 
director will face presents challenges and opportunities from 
rapid technological evolution, including machine learning, 
artificial intelligence and quantum computing, as well as the 
growing capabilities of the technological industry. If 
confirmed, I know that a strong public-private partnership will 
be needed to ensure this country benefits from the leading-edge 
technology being developed and implemented today and into the 
future.
    Finally, I recognize that this nomination is to lead both 
U.S. Cyber Command and the NSA. Although the co-location and 
cooperation of the two powerful organizations has been critical 
to their growth, I also see them as two unique entities with 
their own identities, authorities, and oversight mechanisms. I 
am committed to assessing the needs of both to optimize their 
individual success in the best defense of our Nation.
    If confirmed, I will ensure that the agency's intelligence 
customers can continue to rely upon timely and accurate 
products, delivered with integrity, to ensure we maintain an 
advantage over increasingly adaptive adversaries. Equally, I 
will always ensure the National Security Agency upholds full 
compliance with our laws and the protection of our 
constitutional rights.
    I am deeply honored to be considered for these leadership 
positions. If confirmed, I look forward to working closely with 
the committee and the entire Congress to ensure we leverage our 
opportunities and also address our challenges. Chairman Burr, 
thank you for this opportunity to be here this morning. I look 
forward to answering your questions.
    [The prepared statement of General Nakasone follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Chairman Burr. General, thank you for that statement. Thank 
you for your service to the country. One could leave with what 
you have accomplished, with a great career; but I think greater 
things are ahead of us for you and for this country. And we're 
grateful for your willingness and your family's willingness to 
take this next chapter.
    Before we begin, I'd like to advise members that, pursuant 
to Senate Resolution 400, the committee received this 
nomination on referral from the Senate Armed Services Committee 
on 6 March 2018 and we have 30 calendar days within which to 
report this nomination to the full Senate. It is my intention 
to move to a committee vote on this nomination as soon as we 
possibly can. Therefore, for planning purposes, if any members 
wish to submit questions for the record after today's hearing, 
please do so by close of business today.
    With that, we will go into the five-minute round by 
seniority, and I'll recognize myself first.
    General, leaks of classified information this committee 
takes very seriously; and we believe it puts sensitive sources 
and methods at risk and can in many cases cause irreparable 
damage to our national security. Our committee has already 
taken action in the Intelligence Authorization Act for fiscal 
year 2018 by imposing enhanced penalties on those convicted of 
unauthorized disclosures. If confirmed, how do you plan to 
address the security of sensitive and classified information at 
the agency?
    General Nakasone. Mr. Chairman, the safeguard of our 
national secrets, the safeguard of our capabilities, is one of 
the most important things the next director will continue to 
address. If confirmed, my intent is to look to make sure that 
the ``Secure the Enterprise'' and the ``Secure the Network'' 
initiatives that NSA has undertaken to date are timely, are 
accurate, are on target, to ensure that we continue to have the 
safeguard and security of our national treasures.
    With that being said, I would also add, Mr. Chairman, that 
there are two elements that I see as we look long-term to this 
issue. First of all is continuing to hire great people that 
work at the NSA, not only hiring them but also training them, 
developing them, and ensuring that their long-term careers with 
the NSA are well tended to.
    The second thing, though, is we need to also understand 
that there are control mechanisms that we as an agency need to 
continue to look at to ensure that we have the ability to not 
only safeguard our network, but also secure our environment.
    Chairman Burr. General, do I have your commitment that, if 
such a leak happens, that you will, as timely as you can, 
notify the committee? And will you continually notify the 
committee on progress that NSA makes towards preventing and 
deterring unauthorized leaks?
    General Nakasone. Certainly, Mr. Chairman.
    Chairman Burr. Thank you.
    General, the committee Intel Authorization Act of 2018 and 
fiscal year 2017 included provisions to enhance NSA's ability 
to recruit and retain science, technology, engineering, and 
mathematics--STEM--employees. Nevertheless, NSA employees still 
will be compensated less than their private sector 
counterparts. How do you plan to recruit and retain those top 
STEM candidates, especially given that there is that 
compensation gap between government and the private sector?
    General Nakasone. Mr. Chairman, first of all thank you to 
the committee for the Intelligence Authorization Act. I think 
that is a very, very important element, important ability for 
the next director to be able to leverage in the future.
    As I take a look at NSA's workforce and my previous 
experience, the one thing that sets NSA apart is their mission. 
I believe the most critical thing that we have to continue to 
do at the National Security Agency is to ensure our people 
understand and are able to work this very important mission: 
Defend the Nation, secure the future. This is what I think is 
essential for us and is our advantage as we look to the future.
    Mr. Chairman, I would also say as we look to the future we 
have to continue broad abilities to recruit from a very, very 
diverse population, academia, industry, inside our government. 
I think this is critical that we can continue to attract our 
best and brightest people.
    Chairman Burr. General, are you familiar with NSA21?
    General Nakasone. Yes, Mr. Chairman, I am.
    Chairman Burr. Would you just briefly comment on your views 
on that initiative, which is to prepare for the 21st century a 
more efficient, effective NSA?
    General Nakasone. Mr. Chairman, NSA21, as I understand it, 
the largest reorganization of the agency since 2000. And that's 
significant if you consider the fact that 70 percent of the 
agency has been hired since 9/11. It was designed to improve, 
obviously, and focus on people, integration, and innovation. It 
was designed to address a number of changes in our environment, 
changes to our networks, changes to competition for our 
workforce, changes to our budget.
    I would say to date, it has just been instantiated at the 
end of 2017. And so, if confirmed, I would ask if I could have 
a bit of time to take a look, evaluate what has been done, look 
at what has been successful and what may need assessment and 
continue that dialogue with the committee.
    Chairman Burr. You've got a commitment to do that.
    With that, my time's expired. The Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    And again, General, congratulations on your nomination and 
thank you for your service. One of the things I think this 
committee prides itself on is our strong working relationship 
with all components of the intelligence community. And as 
you're aware, we have had an ongoing investigation into Russian 
activities stemming from the 2016 election. For the record, 
will you commit to ensuring that this committee will be 
provided with all the information requested pursuant to our 
ongoing Russia investigations?
    General Nakasone. I will, Mr. Vice Chairman.
    Vice Chairman Warner. Thank you.
    At our last open hearing, we had all of the heads of all 
the principal intelligence community agencies. Every one of 
them, including your predecessor Admiral Rogers, reconfirmed 
their support for the January 2017 assessment that Russia 
interfered in our last elections.
    I want to get in, for the record: Do you agree with that 
January 2017 IC assessment, that Russia interfered in our 2016 
elections? And the second part, editorial comment here: In 
light of their success in those efforts, do you expect further 
interference by Russia in our elections and, for that matter, 
the elections of our allies?
    General Nakasone. Mr. Vice Chairman, I agree with the 2017 
assessment. I think the Director of National Intelligence has 
said it best with regards to future actions of the Russians. 
And that is, ``Unless the calculus changes, that we should 
expect continued issues.''
    Vice Chairman Warner. Well, we would look forward to 
working with you on making sure--this committee is going to 
have a public hearing next week on this issue of election 
security, and I'm very proud of members of both sides of the 
aisle and how hard they've worked on that. And we, if 
confirmed, would look forward to working with you on this issue 
of election security.
    One of the things that I've found and believe is that we 
don't have, I think, a clearly articulated cyber doctrine at 
this point that not only defends our government, but also 
deters particularly near-peer adversaries. I think I could 
better articulate our strategy vis-a-vis second-level states 
like North Korea, Iran, and terrorist threats like ISIS. But I 
am concerned with near-peer adversaries we don't have that 
clear cyber doctrine.
    And I know you're just coming into this position, but who 
do you think in the Administration is in charge of developing a 
cyber doctrine policy that would deter, whether it's Chinese 
theft of our intellectual property or Russia misinformation and 
disinformation campaigns. Who's going to be in charge of 
developing that doctrine and where do you think it stands at 
this point?
    General Nakasone. Senator, ultimately I would anticipate 
that strategies such as this would come from the Executive 
Branch, perhaps the National Security Council. However, I would 
anticipate that all elements of the government would contribute 
to the strategy.
    In terms of, if confirmed, my role, I would anticipate that 
I would provide my insights to both the Joint Staff and the 
Department of Defense as this strategy is developed.
    Vice Chairman Warner. Well, with your strong intelligence 
background, I hope we can count on you to be part of that. I 
think it is time that we have that clearly articulated 
doctrine. And again, this is not a criticism in this case of 
the current Administration. This has been a problem, I think, 
that has plagued our Nation for more than a decade.
    One of the areas that I constantly come back to and I think 
is an example of where we need a doctrine is with how we deal 
with the dramatic increases of devices that are connected to 
the internet, the so-called Internet of Things. We're roughly 
at about 10 billion devices connected now. That number is 
estimated to go to 20 to 25 billion within the next five or six 
years. Matter of fact, the Director of the DIA, General Ashley, 
emphasized that our weakest technology components, mobile 
devices and the Internet of Things, was an area of exploitation 
for potential adversaries.
    How do you think we would go about securing devices 
connected to the internet? And do you think that there ought to 
be at least a basic policy put in place that would say that the 
Federal Government's purchasing power ought to be used with 
some determination that we only would buy devices that, for 
example, are patchable or don't have embedded pass codes so 
that we don't, frankly, embed within our Federal Government 
enormous new vulnerabilities?
    General Nakasone. So, Senator, certainly awareness, as you 
talk about, the Internet of Things is very important for all of 
us to understand both the opportunities and certainly the 
challenges here. I think there will likely be, obviously, 
movement that will have to come from the private sector on 
this.
    In terms of policy decisions, I would defer that to the 
Department of Defense as they weigh in to this. But my sense is 
that we have to have a very candid discussion about the growth, 
the explosion of the Internet of Things, and most importantly 
the impact that it could have on our economy and certainly our 
national security.
    Vice Chairman Warner. Well, again, I think you can play a 
critically important role here. I just would hate for us five 
years from now to realize we've bought literally billions of 
devices, just within the Federal Government, and they have 
actually increased our vulnerability. Thank you for your 
responses.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Senator Blunt.
    Senator Blunt. General, let's just start where Senator 
Warner did. You know, Admiral Rogers, who we all have great 
respect for, got a lot of attention recently, I believe on the 
House side, saying he'd been given no new directions as to how 
to deal with things like Russian interference in the elections. 
So let's--let's take that in two directions.
    One is, do you need any new direction, in your view, to 
deal with defending against those kinds of attacks? Do you have 
all the defensive authorization you need? Not whether you have 
all the equipment and staff you need, but do you--do you have 
all the authorization you need to defend our institutions 
against outside aggression?
    General Nakasone. So, Senator, certainly in terms of 
defending the Department of Defense networks, I think that 
there are all the authorizations and policies and authorities 
that are necessary.
    Senator Blunt. What do you need about the non-department? 
NSA, what if somebody's attacking the--the State Department or 
some other?
    General Nakasone. So certainly, if confirmed as the 
Director of the National Security Agency, the authorities for 
the national security systems falls within the purview of the 
Director of NSA and I believe has the authorities on which he 
would be able to execute that defense.
    Senator Blunt. Do you need more authorities to work with 
State and local election officials?
    General Nakasone. So certainly, there would need to be a 
policy decision, Senator, that would indicate that that there 
would be, you know, more authorities for--for Cyber Command or 
NSA to be able to do something like that.
    Senator Blunt. But for the Federal Government and for the 
military, your defensive role is clearly understood?
    General Nakasone. So certainly for--on the NSA side for the 
national security systems, it is understood; and on the 
CYBERCOM side for the defense of DOD networks, certainly 
understood.
    Senator Blunt. And I think we all, and I believe this was 
Senator Warner's question, well, worded maybe a little bit 
differently: How do we develop a more well-understood response, 
an offensive guideline, if you would? How do we--what do we 
need to do to be sure that our adversaries know that there's a 
price to be paid, beyond just us trying to subvert their 
efforts to get into our networks? Do we have an offensive 
strategy and do we need one?
    General Nakasone. So, Senator, I think both Vice Chairman 
Warner and yourself speak to this idea of a strategy: What is 
the strategy for the Nation in terms of cyberspace? I think 
that strategy being developed in terms of how we defend 
ourselves, certainly, is important, and it would lay out roles, 
responsibilities, functions of the major elements of our 
government.
    And I think that that is obviously one of the things that 
would help both internally for the elements of our government, 
but also externally, as you say, to provide a set of left and 
right boundaries perhaps for our adversaries to understand.
    Senator Blunt. Well, I think a determination to create 
where those boundaries are and what we might do may need to be 
made outside of your agency. But inside your agency, I can't 
imagine a more important person to be at the table when we try 
to determine what--how that--how that determination could 
actually be implemented. I think there's a strong sense that 
there's too much of no price to be paid at this point by people 
who try to either steal our intellectual property, or interfere 
with elections, or whatever else they might try to do.
    The other area where I think you may have to look for an 
even more expansive role is the acquisition of equipment, 
signal intelligence equipment, by other agencies. I think you 
have a role to play there in one of the many hats you'll be 
wearing in this job. Do you have concerns that other Federal 
agencies may be buying equipment that could in the future be 
troublesome for us?
    General Nakasone. Senator, I certainly have concerns. I 
think the recent statements by the Department of Homeland 
Security and their directives with regards to select antivirus 
companies throughout the world and the ensuing National Defense 
Authorization Act that prohibited the use of select antivirus 
products within our government is very, very important for the 
future.
    Senator Blunt. Well, again, I think you bring the 
information to the table on that.
    And my last question would be something we've talked about 
before. Particularly at the Cyber Command level, what's the 
value of the Reserve force or the National Guard? I know 
Missouri has a really good cyber unit. I think cyber units in 
the Reserves, back to maybe the Chairman's question about how 
we have the talent we need: How do we bring that part-time 
talent to use to our benefit, if that's a good idea in your 
opinion?
    General Nakasone. Senator, I think it's a tremendous idea. 
In my current role as the Commander of Army Cyber, our Army is 
building 21 cyber protection teams, 10 in the U.S. Army Reserve 
and 11 in the National Guard. What you indicate is critical for 
us as we look to increase the best and brightest of our Nation 
being able to commit to the defense of our Nation in 
cyberspace. The Guard, the Reserve, have tremendous talent that 
we look to in the future to provide us what we often term the 
strategic depth for our Nation. And so very, very pleased to 
serve with those fine Americans and hopefully in the future 
continue to be able to incorporate and to promote their service 
for our Nation.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman and colleagues, just a quick comment before we go to 
our nominee. The nomination of Gina Haspel to head the CIA 
comes at an especially momentous time. Senator Heinrich and I 
have asked that certain aspects of her background be 
declassified so that the American people can see what sort of 
person might head the agency at a particularly important time. 
I'll just wrap up this point by saying I hope members will 
support what Senator Heinrich and I are calling for with 
respect to declassification.
    Mr. Nakasone, a historic day because, as I understand it, 
you are the first nominee from the NSA to be considered at this 
committee; and we welcome you; and let me begin with some 
questions.
    In 2001, then-President Bush directed the NSA to conduct an 
illegal, warrantless wiretapping program. Neither the public 
nor the full Intelligence Committee learned about this program 
until it was revealed in the press. Speaking personally, I 
learned about it from the newspapers.
    So there is a lot riding on how you might address a similar 
situation, and we've already noted the history of your being 
here. If there was a form of surveillance that currently 
requires approval by the FISA Court and you were asked to avoid 
the court based on some kind of secret legal analysis, what 
would you do?
    General Nakasone. Senator, thank you for that question. 
First, I would offer, with regards to the situation that you 
describe, I would obviously have a tremendous amount of legal 
advice that would be provided to me, if confirmed, by those in 
the agency, by those in the department, by those obviously that 
are in the Director of National Intelligence.
    At the end of the day, I think that one of the most 
important things is that we have the conversation between the 
National Security Agency and this oversight committee to 
understand----
    Senator Wyden. Let me just stop it right there, so I can 
learn something that didn't take place before. You would, if 
asked, tell the entire committee that you had been asked to do 
that?
    General Nakasone. So, Senator, I would say that I would 
consult with the committee. I would obviously ensure----
    Senator Wyden. Would you inform--when you say ``consult,'' 
you would inform us that you had been asked to do this?
    General Nakasone. So, again, Senator, I would consult with 
the committee and have that discussion. I think that one of the 
important things that I have seen is the relationship between 
the National Security Agency and this committee. My intent 
would continue that, that discussion.
    But at the end of the day, Senator, I would say that there 
are two things that I would do: I would follow the law; and I 
would ensure, if confirmed, that the agency follows the law.
    Senator Wyden. First of all, that's encouraging, because 
that was not the case back in 2001. In 2001, the President 
said: We're going to operate a program that clearly was 
illegal, illegal. You've told us now you're not going to do 
anything illegal. That's a plus. And you've told us that you 
would consult with us if you were ever asked to do something 
like that. So I appreciate your answer.
    Now let me move next to encryption. The widespread 
consensus from encryption experts is that tech companies can't 
modify their encryption to permit law enforcement access to 
Americans' private communications and data without also helping 
sophisticated foreign government hackers get in. You are as 
familiar with the capabilities of our adversaries as anybody. 
Do you agree or disagree with those experts?
    General Nakasone. So, Senator, in terms of encryption I 
would begin with saying this is something that for 65 years NSA 
has been at the forefront of doing, encrypting our national 
security systems, our data, our information, our networks. What 
has changed these days is the fact that the power of 
encryption, particularly in the private sector, has put law 
enforcement at times, even with a court order, at risk of being 
able to--be able to investigate or perhaps even prosecute a 
crime.
    I would offer that for the future this is one of those 
areas that, if confirmed, I have much to learn and----
    Senator Wyden. My time--my time is up, General. Just a yes 
or no answer to the question with respect to what experts are 
saying. Experts are saying that the tech companies can't modify 
their encryption to permit law enforcement access to America's 
private communications without the bad guys getting in, too. Do 
you disagree with the experts? That's just a yes or no.
    General Nakasone. So I would offer, Senator, that it's a 
conditional yes; that there are times when----
    Senator Wyden. Right. That is--that's encouraging as well. 
I look forward to working with you in the days ahead.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. General, thank you. Thanks for your 
service in the past and I appreciate you stepping up into this 
role. The nomination process is not a fun process. It's not 
someone, anyone, wakes up and says: Gosh, I'd like to go 
through Senate confirmation, because of the length of the 
investigation, the information you've already put out, and the 
questioning time. So I just want to tell you, I appreciate you 
doing it and stepping up to work through the long, difficult 
process.
    Help me understand the role of collaboration between the 
NSA and commercial entities and their networks, critical 
infrastructure and their networks, just the communication in 
trying to be able to determine real threats that are there that 
we may face domestically or internationally?
    General Nakasone. Senator, in terms of collaboration, so 
NSA for many, many years has been at the forefront obviously of 
understanding advances of our--of our adversaries. That 
reporting, that communication with other elements of our 
government, whether or not it's the Federal Bureau of 
Investigation or it's the Department of Homeland Security, has 
been critical to inform other members of our critical 
infrastructure and key resources.
    I see this as an element that must continue into the future 
and a sharing and integration that's important for the overall 
defense of our Nation.
    Senator Lankford. How do we get that faster? What does it 
take to have faster collaboration?
    General Nakasone. So I think faster collaboration is driven 
by, you know, several things. One is a demand signal, a demand 
signal that's coming from not only other elements of our 
government, private sector. I would also say that it's--it's 
also part of supply, being able to grow a number of analysts 
and an ability to continue to report. I think those are two of 
the key elements, Senator.
    Senator Lankford. So let's talk about this wonderful term 
that's thrown around NSA all the time, the ``dual hat,'' 
working with U.S. Cyber Command and then also directing the 
NSA. You made a comment in your opening statement about that, 
that that has been and will continue. But you also made a 
comment that you see those as unique entities.
    Help me understand a little bit. Are there walls between 
those two entities, or are they just distinct roles, or how do 
you see them as unique entities?
    General Nakasone. Senator, if I might begin with the dual 
hat discussion. In terms of the dual hat arrangement, I'm not 
predisposed in terms of whether that arrangement stays or ends.
    Senator Lankford. Right.
    General Nakasone. I know that the President and Congress 
both have spoken on it, the President in August of 2017 and 
then Congress in the NDAA that listed a series of six 
conditions that both the Secretary and the Chairman must attest 
to before the dual hat is terminated.
    It's my assessment that what we should do at the end of the 
day is make a determination that is in the best interest of the 
Nation. That's the key, critical piece of it. If confirmed, my 
intent would be to spend the first 90 days looking at that, 
providing an assessment to both the Secretary and the Chairman, 
and then moving forward from there.
    Senator Lankford. Okay. Would you allow us to be in that 
conversation as well, as far as your assessment?
    General Nakasone. Certainly, after talking with the 
secretary and the Chairman, yes, Senator.
    Senator Lankford. That's fine. That'd be just fine.
    So talk to me a little bit about this issue about cyber 
doctrine. That is something this committee has talked about 
often. It has been something that has been a frustration. I'm 
just trying to see who is giving recommendations to the 
President on how we respond, the speed of our response. 
Attribution for where attacks came from are difficult to do, as 
you know extremely well. But, if we don't get a quick response 
to that and individuals aren't able to make decisions with 
accurate, timely information, it makes it much tougher.
    So the question that we always have is who makes the call? 
Who is it that presents the set of ideas to the President to 
say, here are the options that you have? Where does--where do 
you expect that comes from?
    General Nakasone. Senator, if I might begin with the 
strategy or the doctrine piece and then, with regard to the 
options, address that as well. I do believe that an overall 
strategy for how the Nation is going to defend itself in 
cyberspace is very important. What are the roles of the 
Department of Defense, the Department of Justice, and Federal 
Bureau of Investigation and, of course, the Department of 
Homeland Security? How do we ensure that there's cross talk, 
that there's obviously roles and responsibilities that are--
that are fully delineated? I think that's an important piece.
    With regards to options in the future, if confirmed I would 
see that as my role as Commander of U.S. Cyber Command to prove 
a series of options within cyberspace that the Secretary of 
Defense and the President can consider. I would offer, however, 
that--that that may not be the only set of options that are 
necessary. When we look at the strength of this Nation, the 
Nation has tremendous strengths diplomatically, 
informationally, economically, and those might also be options 
presented.
    Senator Lankford. But who's the clearinghouse to be able to 
gather those and be the final presentation to the President?
    General Nakasone. So, in terms of military options, 
Senator, I think that would be myself to the Secretary of 
Defense and then the President.
    Senator Lankford. Okay. That's what we need to hear. Thank 
you very much.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Following-up on that question, I think this is one of the 
most important areas of policy. Just moments ago, we received 
information that the United States Government has imposed 
additional sanctions on Russia in response to the activities in 
2016. The question is, are sanctions enough? Sanctions are 
important, but the question is sanctions always, by definition, 
occur after the attack. The best attack is the one that doesn't 
occur.
    That gets to the question of deterrence. And I hope, as we 
discussed in the Armed Services Committee, one of the tasks you 
will take on is doing just what you said, of developing options 
that would be available to us, that we could talk about as 
deterrence. Your thoughts on the importance of having some 
deterrent capability, as well as after-the-fact punishment 
capability?
    General Nakasone. Senator, I agree in terms of having a 
range of options, and I would certainly see, if confirmed, my 
role to provide a series of cyber options that might be used in 
a deterrent role.
    But I think it's important to state that it's not only 
cyber or military options that may be the most effective. And, 
in fact it may be less effective than other options that might 
be considered. And so I think that that's an important piece 
that, you know, as we consider the future, what are the range 
of options that might include the entire government is critical 
for us.
    Senator King. And I agree. I'm not--I'm not suggesting that 
it has to be cyber for cyber or military for military. But the 
point is, adversaries have to know they will pay a price for 
attacking us, whether it's cyber or kinetic.
    General Nakasone. I agree, Senator.
    Senator King. And also, it was mentioned in this morning's 
press conference apparently, and I just have one sentence on 
this, the Administration has warned the country about potential 
attacks on critical infrastructure, particularly the electric 
grid. My concern is that the electric grid is not only 
vulnerable; but, from public reports, that there are already 
efforts to plant malware or to seed malware in SCATA systems, 
et cetera. Is this something that you're familiar with and are 
concerned about?
    General Nakasone. Senator, certainly the entire defense of 
our, you know, electrical system within our critical 
infrastructures is of great concern to me. I am aware that 
there has been reporting with regards to elements within--
within our ICS and SCATA systems. That's something that should 
concern all of us.
    Senator King. Do you see part of your job at NSA as working 
with the private sector? Because this is not--it's not like 
there's an attack on an air base. There might be an attack on 
the financial system or on the electrical system in the 
Midwest. And it seems to me this is an area, it's sort of new 
territory, if you will, where there has to be a closer 
relationship between the private sector and government.
    General Nakasone. Senator, I certainly agree with you in 
terms of the new relationship. If we consider cyberspace, 90 
percent of, you know, our critical infrastructure is held 
within the private sector.
    Senator King. Right.
    General Nakasone. Currently right now, you know, the work 
that DHS does in terms of informing the private sector in the 
critical infrastructure is critical for us. In terms of the 
future, you know, I would see that in looking at, you know, if 
we're understanding what's going on in the sector, obviously a 
rich dialogue has to occur between, you know, the National 
Security Agency and those that--that have this type of 
technology.
    Senator King. Does that dialogue exist today?
    General Nakasone. Senator, I would--I would have to defer 
on that. That's something that, given my current position in 
Army Cyber, I'm not sure.
    Senator King. But I take it if confirmed for this position, 
that dialogue is something you would seek to--to establish?
    General Nakasone. Senator, certainly a dialogue with 
industry, but I would also say a dialogue with, you know, our 
universities and academia, our dialogue with a partnership. I 
think those are all kind of components that you have to have if 
you are going to lead a place like the National Security 
Agency.
    Senator King. I'm changing the subject entirely in the few 
seconds I have left. I just heard a new term, ``STEMorrhage.'' 
That's a hemorrhage of STEM people. And that that's something 
that is occurring at the NSA. Is this something--how can we 
compete to retain and attract the strongest STEM talent, which 
is what we need, in competition with Silicon Valley or the 
private sector? And is this a priority that you see as 
important in your mission?
    General Nakasone. Senator, in terms of priorities if 
confirmed, I can't imagine a more important priority than 
talent. In terms of STEM, again I thank the committee for their 
support for, you know, future pay increases for STEM candidates 
within the National Security Agency.
    The way that I would assess that we have to look at it is 
we have to begin with: What's the mission of the agency? 
Because for many, many years the agency has been able to 
recruit and train and retain the best in our Nation based upon 
the idea of being able to secure our Nation and being able to 
defend it. I think that still is an advantage that the agency 
has. I think that appeals to people.
    And I would also offer that NSA is a place where 
technological advances in innovation occur all the time. And I 
think that that is of great interest to our young people.
    Senator King. I hope and I understand that this will be a 
priority, because ultimately talent is the ultimate competitive 
advantage. And I commend you for your willingness to take on 
what is a very important challenge in our country. Thank you, 
General.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you, Mr. Chairman.
    And thank you, General, for your appearance. 
Congratulations on your nomination. I'd like to discuss with 
you the threat posed to the U.S. national security by Chinese 
telecom companies like Huawei, ZTE, China Unicom, China 
Telecom. I believe this threat is grave.
    I've introduced legislation that would prohibit the U.S. 
Government from using Huawei or ZTE or even companies that use 
them. I think there's a good chance we'll pass that into law 
this year.
    Last month, at our Worldwide Threats Hearing, I asked all 
of the intelligence agency directors that appeared before us--
DNI Coats, Director Wray, General Ashley, Director Cardillo, 
Admiral Rogers, Director Pompeo, Secretary-designate Pompeo--if 
they would use Huawei, ZTE, China Unicom, China Telecom 
products. They all said they would not. Would you use any 
products from those companies, General?
    General Nakasone. I would not, Senator.
    Senator Cotton. Okay. You're a special case because you're 
about to be the director of the signals intelligence agency of 
our government. So would you recommend to any of your family or 
friends that are just normal private citizens, that they use 
products from those companies?
    General Nakasone. I would not, Senator.
    Senator Cotton. Thank you for that.
    President Trump two days ago, using the powers that he has 
under current law and from the CFIUS's recommendation, stopped 
the attempted takeover of Qualcomm by Broadcom. It's no secret 
that that's done in part because Qualcomm and Huawei are in a 
competition to establish the worldwide standards and protocols 
for the 5G network.
    The intelligence community, though not a member of CFIUS, 
is an ex officio member. And on something like that, it would 
probably be assigned to the DNI who would task it out to, most 
likely, the NSA to give advice. Do you think CFIUS and the 
President made the right decision to stop the attempted 
takeover of Qualcomm by Broadcom?
    General Nakasone. So, Senator, I'm aware of the situation 
based upon what I've read in the public reports. I don't have 
any other background on this. But what I would say is our 
microelectronics industry is critical for us for the future. If 
you consider what 5G will bring to this Nation, 100 times 
speeds of what we're experiencing today, it's hard not to 
imagine the importance of ensuring that we have confidence in 
our microelectronics industry for the future.
    Senator Cotton. Thank you.
    I am somewhat concerned that some of our allies don't share 
our concerns about Huawei and ZTE. Can I ask you, if confirmed, 
that you'll consult with the Five Eyes partners and other 
partners, South Korea and Japan, to try to convey our 
government's concerns about Huawei and ZTE?
    General Nakasone. I certainly will, Senator.
    Senator Cotton. And maybe if we could talk about that, if 
confirmed, at one of your early hearings. I know you just 
committed 90 days in to look at the dual hat issue. If maybe 90 
days in we could talk about that in a classified setting would 
be fine.
    A somewhat similar topic is the counterintelligence and 
security threats that could be posed by certain GPS-reliant 
devices, things like Fitbits and smartphones. There was a 
recent story in The Washington Post I suspect you saw, about 
soldiers using Fitbits around the world. Secretary Mattis, I 
thought wisely, ordered a review of DOD policies and procedures 
regarding these devices.
    Senator Blumenthal and I also sent Secretary Mattis a 
letter asking that he include other devices, particularly 
Google and Android devices, as part of that review, because it 
appears that Google and Android send quite a bit of information 
from their devices back home to the mothership. That means they 
track very detailed user information and precise location in 
order to push people advertisements. So, for instance, if you 
drive past the same grocery store or department store every 
single day, pretty soon you are getting advertisements from 
those locations.
    How would you view the privacy and counterintelligence 
threats posed by devices like these Fitbits and smartphones 
that are tracking locations, revealing patterns of life, and 
send them back to headquarters? Privacy for our private 
citizens, but counterintelligence for our government employees, 
and especially intelligence officers and military personnel?
    General Nakasone. Senator, I think you accurately describe 
the environment upon which we live today. This is commander's 
business with regards to, in the Army, our operational 
security. Ten, 15, 20 years ago, we were concerned about what 
we said on phones. Today, we're concerned about what our 
soldiers wear, where they're talking, where they are able to be 
monitored. And I think that this is indicative of how we have 
to approach the future, which is we are technologically 
informed; we also have to be informed for our operational 
security as well.
    Senator Cotton. Any thoughts on how we can balance the 
legitimate uses of those technologies? I mean, most soldiers 
are living on a limited budget, so it's valuable for them to 
have advertisements pushed to them saying, you know, when a 
restaurant is offering a special on the way home, or if a 
grocery store is having--has some coupons, and things like 
that. But obviously, these do pose a security risk. Any 
thoughts on how to balance those?
    General Nakasone. Senator, I believe you--you have to begin 
with just understanding what perhaps the threats are out there, 
and understanding, you know, when is it appropriate that 
civilians that are working in a place like the National 
Security Agency or military members within their own formations 
have their phones or are wearing Fitbits. Is there--are there 
places where they shouldn't have those things on? And, I think 
that that's, perhaps, the most important piece that we have to 
have is realization, and then an understanding of those 
operational security risks.
    Senator Cotton. Thank you, General.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    And to follow-up on Senator Cotton's questions: Will you 
commit to coming back to our committee after doing an 
assessment of the vulnerabilities that are created by the use 
of these smart devices by our troops, and give us some 
suggestion about what might be a more appropriate policy?
    General Nakasone. Certainly--I'm sorry, Senator. I would 
welcome the opportunity to continue this dialogue on that.
    Senator Harris. Okay. Thank you.
    I'd like to talk with you about insider threats. According 
to the Office of the Director of National Intelligence, as of 
October of 2015 4.3 million Americans held security clearances. 
Some of the most damaging national security breaches in recent 
years, however, have not come from traditional spies, but 
insiders at our own agencies. Unfortunately, several of these 
incidents happened at NSA, and I am thinking three in 
particular that received a lot of attention and did a lot of 
damage. Have you studied what happened in those cases?
    General Nakasone. Senator, to date in my current role I 
have not studied. I would offer that I think what you point out 
here is very important, that we considered most of our threats 
from external actors. We thought that a foreign nation was, you 
know, our greatest threat. We have to reconsider that, 
particularly as we look at our networks, our data, our weapon 
systems. We have to have a whole spectrum of insider and, 
certainly, external threats as well.
    Senator Harris. And will you commit to doing an assessment 
and reporting back to us on what additional steps might be 
taken to prevent that insider threat?
    General Nakasone. Senator, I do know that the NSA has 
undertaken a number of different initiatives, ``Secure the 
Network'' and ``Secure the Enterprise.'' If confirmed, I will 
certainly commit to digging deep into that, understanding what 
has been done, what has been successful, what needs to be 
perhaps funded for the future, and then continuing that 
dialogue with this committee, if that's okay.
    Senator Harris. Yes. And have you had any experience 
dealing with this at Army Cyber Command?
    General Nakasone. So, Senator, in terms of experience, I 
would say that one of the things that we have been very, very 
vigilant about is just understanding the threats, again, to our 
network, our data and our weapons systems. I can't think of a 
specific example, but I will tell you that it is something that 
we are obviously trained on and think about very, very often.
    Senator Harris. And I want to talk--there's been discussion 
with you already, but I'd like to get a little deeper into the 
issue of the talent drain issue and recruiting. There's a 
report that suggests that since 2015, the NSA has lost several 
hundred employees, including engineers and data scientists.
    We know that we're going to be outpaced by the private 
sector in terms of salaries. So to your point, people who come 
to us to serve the public will do it because they actually care 
about public service and working on behalf of our government. 
But have you given any thought to how we might engage the 
private sector workforce--and I'm thinking of the folks of 
Silicon Valley--in creative ways that might include, for 
example, bringing people on who cannot join the IC full-time?
    Have you thought about that and what would that look like? 
I think it would be challenging, but there must be some 
creative thoughts out there about we could engage folks, even 
if they don't come full-time.
    General Nakasone. Senator, I have thought about that. And, 
you know, I take example of what NSA has done to date with 
their own Point of Presence, which is an initiative to be in 
Silicon Valley and one of their early initiatives, even before 
DIUx. I think it's a very good example of how we need to think 
about the future.
    You indicate one way that we might look at in bringing a 
larger population to our mission. I would offer, one of the 
things that I most admired about the agency is that they are 
looking at a very, very broad range of capabilities, people 
that have even disabilities that, you know, that need to be 
able to work, and have the infrastructure that will support 
that. I think that's tremendously important for us as we look 
at a broader supply, a broader talent base, that we need to be 
able to prosecute our mission.
    Senator Harris. And I really appreciate that you mentioned 
the disabled community as part of the focus and what should be 
the focus about how we are thinking about the need to be more 
diverse in terms of our recruitment and retention policies. So, 
thank you for that.
    And then election security. Admiral Rogers recently 
testified, and I'm going to quote, ``What I see on the Cyber 
Command side leads me to believe that if we don't change the 
dynamic here, that this is going to continue and 2016 won't be 
viewed as isolated.'' And then he went on to add, ``We're 
taking steps, but we're probably not doing enough'' on the 
issue of election security. Do you agree with that statement?
    General Nakasone. Senator, in my current role I do not 
have, obviously, the background of what Admiral Rogers was 
speaking to. That's not part of my current responsibilities, 
but certainly, if confirmed, one of the most important things 
that I would face in the new term, to learn more about this and 
make that assessment.
    Senator Harris. And I'd ask that you would make that a 
priority as soon as you are confirmed, expecting that you will 
be, because obviously folks are starting to vote now and the 
2018 election is upon us. So, thank you for that.
    Chairman Burr. Thank you, Senator.
    General, we have exhausted the members that have questions 
here today. I have asked members to submit questions for the 
record by the end of business today. And I would once again say 
to designees, please try to meet that deadline.
    I would also say to you, if you would respond to those 
questions for the record as timely a manner as you can it would 
benefit us greatly to set the schedule for moving your 
nomination out of the committee and falling within the time 
frame that we're working with with the Senate Defense 
Committee.
    It strikes me you've been nominated at a very pivotal time 
where technology, as the Vice Chairman pointed out, is changing 
annually the same way technology used to change literally 
decade by decade. And I think this is a tremendous opportunity 
and it is a tremendous challenge. I think you're the right 
person at the right time.
    And I think your ability to understand whether that 
technological change is an asset to you or a liability--and I 
think that was in the crux of Senator Wyden's question about 
encryption, and it sort of depends on which window you're 
looking at in the same room.
    It's tough for me to admit that you're the right person at 
the right time because I never thought that I would say that 
about somebody that had--a soldier that had never rotated 
through a North Carolina facility.
    General Nakasone. Sorry, Mr. Chairman.
    [Laughter.]
    Chairman Burr. But I do want to say to you that we're 
grateful for your service to the country. We look forward to 
your leadership at NSA. The relationship between this committee 
and that agency has never been better than it is right now, and 
I think that that's because it's been earned on both sides, the 
agency and the committee.
    The agency has provided us an unprecedented access to its 
products as we've worked for the last 14 months through a very 
difficult investigation, which is distinctly different from the 
oversight role, traditional oversight role of the committee. 
And I would ask you, as long as that investigation continues, 
that it's important on your end that you distinguish the 
request for the investigative portion from the oversight, 
ongoing oversight and real-time oversight of the committee, 
because it will require us to see products that we wouldn't 
historically ask for and, if we did, we would probably be 
refused.
    But it is essential for this committee to do a thorough and 
complete review of what has happened to our election system, 
what has happened from a standpoint of phishing operations--I'm 
not telling you anything that you don't know, given your 
current role--that has been exploited, that will only get worse 
in the future. Our ability to understand that and to not only 
enhance our defensive capabilities, but to begin, as the Vice 
Chairman says frequently, to form a strategic outline of 
options that we have, both defensive and offensive, is 
absolutely important.
    So we put a tremendous amount of emphasis on our ability to 
get this right, and in large measure that's because of the 
access that the NSA has provided us. And I'm sure that under 
your leadership that will continue.
    General, we're proud of you. But, more importantly, we're 
proud of the men and women that every day go to the National 
Security Agency, many of them without any public 
acknowledgement that they work there. It's not the prettiest 
campus, as you know. It's not in the easiest place to get to in 
Northern Virginia and Southern Maryland.
    But they go there and they sacrifice salary for a 
commitment to their country. And they provide the foundation 
for the protection and security of the American people. We 
can't say enough times to them: ``Thank you for what you do.''
    We are here as a tool for you, for your successful 
leadership at the NSA that we know will happen. And I hope you 
will call on us anytime we can enhance that role as Director of 
the National Security Agency.
    With that, this hearing is adjourned.
    [Whereupon, at 11:07 a.m., the hearing was adjourned.]

                         Supplemental Material
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                         
                         


                                  <all>
</pre></body></html>
